                                   Tue, Sep. 20


                  News | Sports | Business | A&E | Opinion

Fraudulent driver’s license buyer gets 12-month sentence

BRENTWOOD — A buyer of a fraudulent New Hampshire driver’s license
received a 12-month jail term on Thursday.

Bladimir Sanchez, 21, pleaded guilty to a felony count of conspiracy to commit
bribery in official political matters in Rockingham County Superior Court.

His sentence marked the latest conviction in a Department of Motor Vehicles
bribery case that exposed a corrupt clerk in the Salem branch office who issued
hundreds of bogus driver’s licenses for a $500 fee.

The payment was only a portion of a $2,500 to $3,000 fee paid by people like
Sanchez — a Dominican national — to get New Hampshire license under an
alias, which would make him appear to be a U.S. citizen.

Assistant Attorney General Karin Eckel said Thursday that Sanchez and others
who got fraudulent licenses in the scheme first obtained a Puerto Rican birth
certificate and a Social Security number belonging to someone else.

Once those bogus documents were purchased, they were brought to the Salem
DMV office, where the license was processed by former DMV clerk Donna
Rockholt, of Manchester.

She would enter into the computer system that the applicant held a
Massachusetts driver’s license as a way to bypass the computer’s security
measures, according to Eckel.

Massachusetts authorities later confirmed that Sanchez’ alias — Juan Marcos
Rodriguez Tapia — never held a license in the Bay State.
The scam at the Salem DMV office lasted for five years and was brought to an
end in May 2010 when state police and federal investigators began rounding up
players who allegedly reaped thousands of dollars in profit by supplying new
identities to illegal aliens and criminals from Massachusetts.

Rockholt is now a state witness, after pleading guilty in February to charges of
felony bribery, theft and drug charges. She is expected to serve at least 12 years
in state prison.

Angie Paola Patrone, 30, of Lawrence, Mass., began serving an 8- to 16-year
sentence after pleading guilty in March to felony bribery charges.

Patrone recruited license customers and funneled them to the alleged head of
the operation, Adalberto Medina, who was friends with Rockholt’s ex-husband,
according to prosecutors.

Medina, of 37 Third St. in Manchester, is set to go on trial in January on 13
bribery-related charges.

His sister, Adelina Cardona, 38, also of 37 Third St. in Machester, was fined
$500 by McHugh on Wednesday for helping a man obtain a fraudulent license in
2009. She pleaded guilty to misdemeanor unsworn falsification.
